SIGAR
     Final                                 Special	Inspector	General	for	
                                            Afghanistan	Reconstruction	




                                                          SIGAR Audit 13-16




       Stability in Key Areas (SIKA) Programs: After 16 Months
       and $47 Million Spent, USAID Had Not Met Essential
       Program Objectives




                                                               JULY
                                                             2013
SIGAR Audit 13-16/Stability in Key Areas
                                          July 2013


SIGAR
Special	Inspector	General	for	
                                          Stability in Key Areas (SIKA) Program: After 16 Months and $47 Million
                                          Spent, USAID Had Not Met Essential Program Objectives

                                          SIGAR AUDIT 13-16
Afghanistan	Reconstruction	

WHAT SIGAR REVIEWED                       WHAT SIGAR FOUND
Over the past decade, the U.S.            According to the SIKA contracts, contractors would award grants to communities
Agency for International                  for projects that address sources of instability identified by the community. In
Development (USAID) has                   September 2012, USAID and the Afghan government agreed that each of the SIKA
overseen a series of stabilization        programs would be a “quick delivery program,” in which projects identified by the
programs throughout                       community were initiated quickly but would achieve long-term results. Such
Afghanistan aimed at improving            projects could include road gravelling, culvert construction, or canal lining. The
security and extending the reach          contracts also state that grants are the “essential” component to the program and
and legitimacy of the Afghan              shall be provided to communities. Although USAID had disbursed approximately
government. USAID currently               $47 million for the four SIKA contracts as of March 31, 2013, none of the funds
administers the Stability in Key          had gone to grants that fund community projects, such as those that are “labor-
Areas (SIKA) programs                     intensive or productive infrastructure projects,” as called for in the SIKA contracts
throughout Afghanistan. USAID             to address sources of instability.
created the four regional SIKA            Although contractors had not completed any grants to address sources of
programs—East, West, South,               instability, all four reported some progress in developing proposals and obtaining
and North—through separate                approval for various grant projects. For example, all four reported achievements in
contracts with a total value of           (1) identifying sources of instability and potential solutions, (2) increasing
over $203 million. AECOM                  awareness of Afghan government line departments and nongovernmental
International Development, Inc.           organizations delivering services to the community, and (3) improving
(AECOM) received the contracts            communication between provincial and district entities.
for SIKA East, SIKA West, and
SIKA South, and Development               The SIKA contracts also identified the importance of the programs being viewed as
Alternatives, Inc. (DAI) received         extensions of the Afghan government, with the programs working with and through
the contract for SIKA North. Each         government partners. However, USAID did not secure a formal agreement with key
of the contracts has an 18-               Afghan government partners until 9 months after it signed the first SIKA contract.
month base period of                      Contractors for the four regional SIKA programs cited the lack of an agreement
performance with the possibility          with the Afghan government as the reason for significant delays in program
of additional 18-month option             implementation. The delay led USAID to extend the performance periods for three
periods.                                  of the contracts and sign a new contract for the fourth, even though the
                                          contractors had not executed any grants. The overall delay in awarding grants
This audit focuses on the status          appears to have created participant dissatisfaction with the programs. For
of SIKA expenditures and                  example, according to one of USAID’s contractors, participants in one of the
program execution. Specifically,          regional programs are experiencing “fatigue” with the many planning workshops
our objectives were to                    they have attended. Such disappointment may actually result in further
(1) describe USAID’s progress in          destabilization and disaffection toward the Afghan government.
expending funds under the four
regional SIKA programs, and               Finally, although the contracts require SIKA to follow the Kandahar Model of
(2) examine the challenges                community contracting—in which the community is responsible for grant project
USAID experienced in expending            conception, implementation, and financial management—a lack of clarity in
funds and implementing the                USAID’s presentation of the model and inconsistencies in contractors’ application
SIKA programs.                            of it undercut SIKA’s objectives and further delayed project implementation. For
                                          example, one of the regional programs plans to use in-kind grants through
SIGAR conducted this work in              nongovernmental organizations and commercial companies to implement projects
Washington, DC from February              for the communities, a practice that would not meet a key requirement of SIKA—
through July 2013.                        having Afghan district entities directly responsible for project implementation.



    For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
WHAT SIGAR RECOMMENDS
SIGAR recommends that the USAID Mission Director for Afghanistan (1) issue guidance requiring documentation of
Afghan government agreement for future USAID programs that align with Afghan government initiatives prior to the
start of the program. To help ensure that the SIKA programs achieve identified strategic and program objectives,
SIGAR also recommends that the USAID Mission Director for Afghanistan (2) instruct the USAID Mission Afghanistan’s
Office of Acquisition and Assistance and Stabilization Unit to modify the SIKA contracts to clearly articulate a
consistent plan for community contracting and implementing the Kandahar Model, and (3) instruct the contracting
officer’s representatives for each of the contracts to ensure that this approach is applied in the regional SIKA
programs.
USAID provided written comments to a draft of this report.
With regard to the first recommendation, USAID stated that its guidance—Mission Order Number 201.03, Project
Design and Approval Process—already calls for reaching concurrence with the applicable ministry and the Ministry of
Finance during the design stage of a program. Thus, USAID believes that the recommendation has been met and
should be removed. However, SIGAR determined that the intent of the recommendation has not been addressed
because the guidance does not explicitly require documentation of the Afghan government agreement. Therefore,
SIGAR retained the recommendation in the report.
USAID partially concurred with the second recommendation. It stated that each of the SIKA programs already uses the
Kandahar Model, albeit in slightly different ways. However, USAID agreed that it inadvertently omitted reference to the
Kandahar Model from the contract for the SIKA West program. USAID plans to modify the SIKA West contract to
include explicit reference to the Kandahar Model. Although including explicit language in the SIKA West contract will
ensure that all four contracts contain the same references to the Kandahar Model, it does not meet the intent of the
recommendation to articulate a consistent plan for community contracting and implementing the model by identifying
key steps that should be integrated into the identification of projects and the execution and management of grants.
USAID did not concur with the third recommendation to instruct the contracting officer’s representatives for each of
the SIKA contracts to ensure that the Kandahar Model is applied in the regional programs because it considered the
recommendation redundant to processes already in place. However, inconsistencies in the application of the model
demonstrate that the existing processes are not sufficient to ensure consistent application in each of the SIKA
programs.

We address these and other USAID comments in the Agency Comments section of the report. USAID’s comments are
reproduced in appendix II.


                                                                                                          SIKA Program
                                                                                                          Area and District
                                                                                                          Rollout Locations




                                                                                                          Source: SIGAR
                                                                                                          analysis of USAID
                                                                                                          data, as of March
                                                                                                          31, 2013.

   For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
July 29, 2013


The Honorable John Kerry
Secretary of State
Dr. Rajiv Shah
Administrator, U.S. Agency for International Development
Mr. William Hammink
USAID Mission Director for Afghanistan


This report discusses the results of SIGAR’s audit of the U.S. Agency for International
Development’s (USAID) Stability in Key Areas (SIKA) programs. We initially planned to assess
USAID’s planning, implementation, and oversight of SIKA grant projects. However, it was not
possible to conduct our original audit as designed because, as of March 31, 2013, none of the
SIKA programs had implemented any community grants. As a result, we focused on USAID’s
progress in expending funds under the four SIKA programs and examined the challenges
USAID experienced in implementing the SIKA programs. This report makes three
recommendations to strengthen execution, management, and oversight of SIKA programs.
In commenting on a draft of this report, USAID disagreed with a number of our findings and
conclusions. In addition, USAID requested that the first recommendation be removed, partially
concurred with the second, and did not concur with the third. We maintain that the evidence
we obtained provides a reasonable basis for the findings, conclusions, and recommendations
in our report, and we discuss agency comments and our response to them in more detail on
page 15 of this report. USAID’s comments and our responses to them are also presented in
appendix II.
SIGAR conducted this work under the authority of Public Law 110‐181, as amended, and the
Inspector General Act of 1978, as amended; and in accordance with generally accepted
government auditing standards.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                            TABLE OF CONTENTS

Background .................................................................................................................................................................. 1 

USAID Has Paid AECOM and DAI Nearly $47 Million, but the Contractors Have Not Completed Any Community-
Implemented Grant Projects ....................................................................................................................................... 5 
Lack of an Agreement with the Afghan Government and USAID’s Failure to Communicate Key Program
Concepts Contributed to Delayed Grants Execution ................................................................................................. 7 

Conclusion.................................................................................................................................................................. 12 
Recommendations .................................................................................................................................................... 12 

Agency Comments ..................................................................................................................................................... 13 
Appendix I - Scope and Methodology ....................................................................................................................... 15 
Appendix II - Comments from the U.S. Agency for International Development ...................................................... 16 

Appendix III - Acknowledgments ............................................................................................................................... 29 


TABLES

Table 1 - District Entities Identified in SIKA Contracts .............................................................................................. 4 
Table 2 - USAID SIKA Base Award and Disbursed Amounts as of March 31, 2013 ................................................ 5 


FIGURES

Figure 1 - SIKA Regional Program, District, and Office Locations ............................................................................. 2 
Figure 2 - Amount of Time Between Requests for Proposal and Implementation of SIKA Programs..................... 8 

Figure 3 - Kandahar Model of Community Contracting ............................................................................................. 9 
Figure 4 - Process Comparison of Kandahar Model Community Contracting and SIKA Non-Competitive Grants to
District Entities ........................................................................................................................................................... 10 


ABBREVIATIONS

                    CDC                                     Community Development Council

                    DDA                                      District Development Assembly

                    MRRD                                     Ministry of Rural Rehabilitation and Development

                    NABDP                                    National Area-Based Development Program

                    SIKA                                    Stability in Key Areas

                    USAID                                    U.S. Agency for International Development




SIGAR Audit 13-16/Stability in Key Areas                                                                                                                              Page ii
Over the past decade, the U.S. Agency for International Development (USAID) oversaw a series of stabilization
programs throughout Afghanistan aimed at improving security and extending the reach and legitimacy of the
Afghan government.1 In June 2011, a congressional report on U.S. foreign assistance to Afghanistan
recommended that U.S. government agencies “challenge the assumption that our stabilization programs in
their current form necessarily contribute to stability,” calling for continued assessment of the effectiveness of
Afghanistan stabilization programs and, as necessary, the reallocation of funds.2 In April 2012, we highlighted
several deficiencies with USAID’s management of a prior stabilization program—the Local Governance and
Community Development program. Our report showed that USAID increased funding and extended the life of
the program despite high contractor operating costs, difficulty setting and measuring program outcomes, and
mixed program results. USAID currently administers four regional Stability in Key Areas (SIKA) programs as
follow-on programs to the Local Governance and Community Development program.
The objectives of this audit were to (1) describe USAID’s progress in expending funds under the four regional
SIKA programs, and (2) examine the challenges USAID experienced in expending funds and implementing the
SIKA programs.
To accomplish these objectives, we reviewed USAID’s contracts, modifications, and related program guidance
for the four regional SIKA programs, including grants manuals, work plans, and performance management
plans, to determine overall strategic and program objectives and approaches to program implementation. We
analyzed monthly and quarterly reports, financial reports, and grant project data from each of the SIKA
programs to ascertain USAID and contractor progress in implementing the programs. Additionally, we
interviewed the contractors (chief of party or deputy chief of party) and USAID oversight officials (contracting
officer’s representatives or alternate contracting officer’s representatives) responsible for each of the SIKA
programs and USAID staff from the Stabilization Unit and the Office of Acquisition and Assistance. We
conducted our work from February 2013 through July 2013 in accordance with generally accepted government
auditing standards. Appendix I contains a more detailed discussion of our scope and methodology.


BACKGROUND

In fiscal year 2006, USAID established the Local Governance and Community Development program to
promote and establish linkages between provincial governments and local communities in priority districts.3
Through this program, USAID sought to address causes of instability at the community level and assist the local
citizenry in developing institutions, processes, and projects to create a stable environment for long-term
political, economic, and social development. At the conclusion of the program, USAID found that instability was
still a problem at the district level. USAID identified two main causes: the lack of development and lack of good
governance. To address these weaknesses, USAID designed the SIKA programs to deliver community-
implemented projects in partnership with the Afghan government to build confidence in the Afghan
government and increase stability.


1 USAID supports Afghanistan in addressing the drivers of instability and establishing an environment for sustained social

and economic development by (1) engaging/supporting at-risk populations, (2) extending the reach of the government to
unstable areas, (3) providing social and economic assistance and income-generation opportunities, (4) building trust
between citizens and their government, and (5) encouraging local populations to take an active role in their development.
USAID’s stabilization programs in Afghanistan include the Quick Impact Projects, which concluded in 2006; the Local
Governance and Community Development program, which concluded in 2011; the Community Based Stabilization Grants
Program and Afghanistan Stabilization Initiative, which concluded in 2012; and the Community Development Programs,
scheduled to conclude in 2013.
2 United States Senate Committee on Foreign Relations, Evaluating U.S. Foreign Assistance to Afghanistan: A Majority Staff

Report, Washington, D.C., June 8, 2011.
3Priority districts are the districts within Afghanistan that USAID Field Program Officers, local Provincial Reconstruction
Teams, and their Afghan government counterparts identified for implementation of the Local Governance and Community
Development program.

SIGAR Audit 13-16/Stability in Key Areas                                                                             Page 1
USAID created the four regional SIKA programs—East, West, South, and North—as separate cost-plus-fixed-fee
term contracts with a total value of over $203 million.4 AECOM International Development, Inc. (AECOM)
received the contracts for SIKA East ($88,680,279 awarded December 7, 2011), SIKA West ($32,005,753
awarded January 29, 2012), and SIKA South ($58,784,676 initially awarded April 10, 2012).5 Development
Alternatives, Inc. (DAI) received the contract for SIKA North ($23,708,930 awarded March 14, 2012). Each
contract has an 18-month base period of performance with the possibility of additional 18-month option
periods. USAID extended the periods of performance for SIKA East, West, and North before the 18-month base
periods expired,6 and signed a new contract for SIKA South with a new 18-month base period in March 2013.
The SIKA programs are currently active in 43 districts. Figure 1 shows the rollout of the SIKA programs,
including the initial pilot districts and subsequent expansion districts as of March 31, 2013.

Figure 1 - SIKA Regional Program, District, and Office Locations




Source: SIGAR analysis of USAID data, as of March 31, 2013.



USAID required the four programs to advance the same strategic and program objectives and intermediate
results. SIKA’s strategic objective is for Afghans to have increased confidence in their district government,
leading to the expansion of Afghan provincial government authority and legitimacy. As a secondary program

4 A cost-plus-fixed-fee contract is a cost-reimbursement contract that provides for payment to the contractor of a negotiated

fee that is fixed at the inception of the contract. The fixed fee does not vary with actual cost, but may be adjusted as a
result of changes in the work to be performed. A cost-plus-fixed-fee contract may take one of two basic forms—completion
or term. The “term” form describes the scope of work in general terms and obligates the contractor to devote a specified
level of effort for a stated time period. Under this form, if the performance is considered satisfactory by the government, the
fixed fee is payable at the expiration of the agreed-upon period, upon contractor statement that the level of effort specified
in the contract has been expended in performing the contract work.
5According to the SIKA South Contracting Officer’s Representative, following a bid protest, USAID issued a new contract for
SIKA South to AECOM in March 2013 in the amount of $60,241,053.
6In January 2013, USAID extended SIKA West’s initial period of performance by 7 months, from July 2013 to February
2014. In March 2013, USAID extended SIKA East’s initial period of performance by 9 months, from June 2013 to March
2014. In May 2013, SIKA North received a 4-month extension from September 2013 to January 2014.

SIGAR Audit 13-16/Stability in Key Areas                                                                               Page 2
objective, SIKA aims to assist district and provincial level Afghan government officials in responding to the local
population’s development and governance concerns, instilling confidence, and building stability. In each
contract, USAID identified four intermediate results required to achieve these objectives:7
       1. Provincial and district entities increasingly address sources of instability and take measures to
          respond to the population’s development and governance concerns.
       2. Provincial and district entities understand what organizations and provincial line departments work
          within their geographic areas, what kind of services they provide, and how the population can access
          those services.
       3. Provincial authorities improve their ability to communicate with district entities to help them better
          understand their population’s needs and prioritize basic service delivery interventions.
       4. Provincial authorities are able to improve basic service delivery by using the Afghan government,
          Community Development Councils (CDCs), District Development Assemblies (DDAs), Afghanistan
          Social Outreach Program District Community Councils, which gain capacity to plan, design, implement
          and monitor projects, with a focus on labor-intensive projects or productive infrastructure.
In September 2012, 9 months after USAID awarded the first SIKA contract to AECOM, the USAID Mission
Director for Afghanistan, the Director General of the Afghan Independent Directorate for Local Governance, and
the Afghan Ministers of Finance and Rural Rehabilitation and Development signed an implementation letter
covering all four SIKA programs.8 The implementation letter documented agreement on the programs’
objectives and outlined the roles and responsibilities of each of the parties. USAID agreed to implement the
SIKA programs as Afghan government programs that worked within Afghan structures. The agreement stated
that activities advancing intermediate result 4 were intended to make each SIKA a “quick delivery program,” in
which projects identified by the community—such as local infrastructure projects—were initiated quickly but
would achieve long-term results. Additionally, the implementation letter reiterated the SIKA contract
requirement that projects be executed with community-led development.


National Area Based Development Program and the Kandahar Model
The SIKA contracts require AECOM and DAI to work within the existing framework and methodology of the
National Area Based Development Program (NABDP) and the Kandahar Model.9 Developed in 2002, the
NABDP is a joint initiative of the Ministry of Rural Rehabilitation and Development (MRRD) and the United
Nations Development Programme. The goal of NABDP is to contribute to a sustainable reduction of poverty and
improve livelihoods in rural Afghanistan.10 In 2007, MRRD developed a variant of the NABDP called the
Kandahar Model. The Kandahar Model features “decentralisation of procurement and financial procedures
coupled with community contracting,” along with “rapid decision making, [and] reduction of red tape.” In each
of the four SIKA contracts, USAID states that the Kandahar Model generally uses community contracting
“without the involvement of external commercial companies or [nongovernmental organizations, and] has led
to rapid implementation of district level projects.”




7   In its comments on a draft of this report, USAID also referred to the four intermediate results as project components.
8U.S. Agency for International Development Afghanistan, Implementation Letter Number 20-01 Stabilization in Key Areas,
September 3, 2012.
9 AECOM and DAI must work within the existing framework of the NABDP and the Kandahar Model in districts with DDAs.
NABDP established DDAs to be the primary, elected, district-level institution representing local populations in community-
led development processes. According to the NABDP Second Quarter 2012 Progress Report—the latest available—there are
a total of 388 DDAs, which represents 96 percent of districts in Afghanistan.
10Because of the close relationship with the NABDP, USAID officials consider SIKA to be aligned with two National Priority
Programs, which advances their commitment to 80 percent alignment with National Priority Programs.

SIGAR Audit 13-16/Stability in Key Areas                                                                                Page 3
Community Grants
The four SIKA contracts state that “the grants program is considered essential to the activities of the
Contractor in achieving the overall strategy and expected results of the program.” Grants that fund the
community-identified and -managed projects are the mechanisms by which the SIKA programs address the
lack of development and lack of good governance that USAID identified as overarching sources of instability. As
such, USAID set aside $46.5 million in the SIKA programs for “grants under contract,” and required AECOM
and DAI to provide grants to designated district entities for community projects as shown in table 1 below.11
Grants under contract are grants that a USAID contractor is allowed to execute with nongovernmental
organizations (nonprofits or for-profits). These grants can take different formats, including standard, simplified,
or fixed obligation grants. In the case of fixed obligation grants, payments are based on the achievement of
verifiable milestones, rather than the actual costs incurred by the recipient.12 According to USAID officials, for
the SIKA programs, grants under contract, specifically fixed obligation grants, are considered to be the same as
the Kandahar Model’s method of community contracting. In this report, we refer to grants under contract as
community grants. Examples of community-implemented projects through NABDP include road gravelling;
retaining wall, small diversion dam, well, or culvert construction; and canal lining.
Under the SIKA programs, only nongovernmental district entities are eligible to receive grants. District
Governors, or any Afghan government entity or official, are not eligible to receive SIKA grants. Table 1 identifies
the various district entities involved in implementing SIKA grants.

Table 1 - District Entities Identified in SIKA Contracts




Source: SIGAR analysis of USAID data.

11   The SIKA contracts define district entities as including nongovernmental and governmental entities and officials.
12 See USAID, ADS Chapter 303, Grants and Cooperative Agreements to Nongovernmental Organizations, partially revised
July 3, 2012.

SIGAR Audit 13-16/Stability in Key Areas                                                                                 Page 4
USAID HAS PAID AECOM AND DAI NEARLY $47 MILLION, BUT THE
CONTRACTORS HAVE NOT COMPLETED ANY COMMUNITY-IMPLEMENTED
GRANT PROJECTS

As of March 31, 2013, USAID had disbursed approximately $47 million for the four SIKA contracts.13 However,
none of the disbursements were used to execute community grants under contract “with a focus on labor-
intensive projects or productive infrastructure,” as called for under intermediate result 4 of the SIKA contracts.
All four SIKA contracts explicitly state that “the grants program is considered essential to the activities of the
Contractor in achieving the overall strategy and expected results of the program,” and grants execution is the
only program component identified as “essential” in the contracts. Table 2 shows the total awards and
amounts set aside for grants in the base period, along with funds disbursed as of March 31, 2013.

Table 2 - USAID SIKA Base Award and Disbursed Amounts as of March 31, 2013




Source: SIGAR analysis of USAID, DAI and AECOM data.
Notes:
aFor   SIKA West, the total for estimated costs and fixed fee includes $157,500 budgeted for grants handling costs.
bForSIKA South, the total for estimated costs and fixed fee is based on the original contract signed in April 2012. The most
recent contract signed in March 2013 included estimated costs and fixed fees of $46,241,053.

Even in a few districts designated as pilot districts, AECOM and DAI did not complete a full project cycle—from
identifying sources of instability through implementing community grant projects. Furthermore, as of March 31,
2013, neither AECOM nor DAI had awarded grants to eligible district entities either in the pilot districts or
expansion areas even though they had 8 to 10 months to do so. An independent management review
commissioned by the United Nations Development Programme in 2010 noted that NABDP projects took
between 45 days and 6 months from receipt of district petition to contract award depending on the complexity
of the project.14 None of the four SIKAs met this timeframe, even in the pilot districts.
SIKA East, West, and South failed to meet their targeted goals for completed community grant activities—a key
performance indicator. According to the programs’ Performance Monitoring Plans, the first year target for
number of completed grants activities was 40 for SIKA East, 72 for SIKA West, and 60 for SIKA South.15 In its
comments on a draft of this report, USAID stated that, because the agreement with the Afghan government on
the SIKA programs was required to be in place before any grants could be implemented, the lack of an
agreement between USAID and the Afghan government prior to September 2012, and the resulting delay in the
implementation of grants, affected the targets set in the Performance Monitoring Plans. Nevertheless, AECOM

13In June 2013, USAID provided updated funding data and reported that, as of June 18, 2013, USAID had disbursed
almost $57 million for the four SIKA contracts.
14United Nations Development Programme. Independent Management Review National Area Based Development
Programme (NABDP) III Afghanistan. Kabul, Afghanistan, December 14, 2010. In its comments on a draft of this report,
USAID stated that an MRRD official told them that NABDP projects typically take 6 to 9 months.
15“Grants activities” refers to all the activities in a district’s prioritized list of projects that qualified for funding to address

sources of instability. An activity is any task within a grant with a timeline milestone and budget line that are independent of
other aspects of the grant. Grants may include one activity, or several. The latest SIKA East Quarterly Report shows the first
year target as 24 completed grants activities. SIKA North’s Performance Monitoring Plan did not have an indicator for the
target number of grants activities.

SIGAR Audit 13-16/Stability in Key Areas                                                                                     Page 5
and DAI failed to complete any community grants, even in the pilot districts where they were instructed to begin
projects while the parties negotiated the agreement.
However, all four SIKA programs reported some progress in developing proposals and obtaining approval for
various grant projects. For example, as of March 31, 2013, SIKA East reported submitting seven grant
applications to USAID for approval and receiving 30 completed grant application packages; an additional 87
grant applications were under development at that time. SIKA West reported that it gained USAID approval on
20 grant projects.16 SIKA South reported 63 project “concept notes” for potential grant projects in various
stages of review.17 Finally, SIKA North reported “…moving to awarding grants in the pilot district” in its most
recent quarterly report in March 2013, but DAI officials did not provide specific numbers or any further
information.
In its comments on a draft of this report, USAID reported that, as of July 1, 2013, the four SIKA programs had
made “significant progress” in awarding grants. According to USAID, SIKA East currently has 41 grants
underway and $164,868 in disbursements for grants. SIKA West has 29 grants underway and $109,927 in
disbursements. SIKA North has 49 grants underway and $10,399 in disbursements. USAID also reported that
SIKA South has still not made any disbursements for grants. Despite this recent progress, the $285,194 in
cumulative disbursements for grants represents only 0.6 percent of the $46.5 million designated for grants
execution between the four contracts.


SIKA Funds Have Been Spent Primarily on Operational Expenses and Community
Workshops and Training Sessions, Rather than Grants
Sixteen months after signing the first contract, the SIKA programs reported that cumulative disbursements
primarily consisted of operational expenses, such as subcontracts, security, labor, and indirect costs, and
resulted in community workshops, meetings, and training sessions. In other words, as of March 31, 2013, the
$47 million disbursed by USAID was primarily spent to support (1) identifying sources of instability and
potential solutions, (2) increasing awareness of Afghan government line departments and nongovernmental
organizations delivering services to the community, and (3) improving communication between provincial and
district entities, primarily through community workshops and training sessions.18
        Since March 2012, SIKA North reported providing 83 training sessions for 1,776 participants on the
         use of the Stability Analysis Mechanism tool to identify sources of instability, and then create a local
         stability plan, in which community members propose solutions to the identified sources of instability.
        Since December 2011, SIKA East reported holding 16 service provider catalog training workshops for
         606 district entity participants to help them understand what organizations and departments work in
         their geographic area.
        Since January 2012, SIKA West reported conducting 47 communications training sessions for
         provincial authorities and district entities that focused on building communications skills, outlining the
         importance of communications in the daily work of the district government, and designing
         communications plans. For example, in Pusht-e-Rod district, 26 farmers received a communications
         needs assessment and training on developing a communications plan.



16 While SIKA West’s official report to USAID showed no funds spent for the grants under contract line item as of March 31,

2013, in documentation provided to SIGAR, AECOM reported disbursing approximately $27,000 from the grants under
contract budget to communities as reimbursements for participation in administrative training on project and financial
management.
17 Project concept notes are project proposals that district entities submit to USAID for concurrence prior to developing a

full grant application for the project. The concept notes include basic information such as the sources of instability the
project addresses, location, and estimated activity budget.
18 Some activities in support of intermediate result 4 include administrative grant process training for program

stakeholders and technical surveys conducted by district engineers for infrastructure projects.

SIGAR Audit 13-16/Stability in Key Areas                                                                               Page 6
        In the quarter ending March 31, 2013, SIKA South reported undertaking a capacity assessment of
         district and provincial government entities’ strengths and weaknesses.
 In September 2012, USAID and the Afghan government agreed that each of the SIKA programs would be a
“quick delivery program,” in which projects identified by intermediate result 1 activities—such as community
infrastructure projects—were to be initiated quickly but would achieve long-term results. Our findings
demonstrate that the SIKA programs failed to achieve this objective. Nevertheless, nearly 16 months after
signing the first SIKA contract, USAID extended three of the SIKA contracts and signed a new contract for the
fourth program.


LACK OF AN AGREEMENT WITH THE AFGHAN GOVERNMENT AND USAID’S
FAILURE TO COMMUNICATE KEY PROGRAM CONCEPTS CONTRIBUTED TO
DELAYED GRANTS EXECUTION

USAID’s SIKA Activity Approval Memo, its requests for proposal, and contracts all call for SIKA to be
implemented jointly with the Afghan government. The contracts specifically state that the SIKA programs must
“be seen as an extension of the [Afghan government], not as increased foreign presence and must work within
Afghan structures.” Moreover, the contracts require AECOM and DAI to work within the existing Kandahar
Model framework and methodology to ensure that service delivery does not result in parallel institutions or
processes.19 Despite the requirement that SIKA be seen as Afghan government programs, USAID did not
secure a formal agreement with key Afghan government partners until 9 months after awarding the first SIKA
contract to AECOM and almost 22 months after issuing the first requests for proposal. The delay in signing an
agreement meant that USAID could not be assured of Afghan government participation in SIKA
implementation. Figure 2 shows key dates associated with SIKA contracting and implementation.




19 In July 2010, international donors agreed to progressively align their development assistance behind the Afghan
government National Priority Programs with the goal of achieving 80 percent of alignment within the next 2 years. USAID
officials stated that the four SIKA programs are aligned under the Agriculture and Rural Development Cluster with National
Priority Program-4, Strengthening Local Institutions and under the Governance Cluster, Local Governance.

SIGAR Audit 13-16/Stability in Key Areas                                                                            Page 7
Figure 2 - Amount of Time Between Requests for Proposal and Implementation of SIKA Programs




Source: SIGAR analysis of USAID, DAI and AECOM data.


AECOM and DAI stated that the initial absence of an agreement with the Afghan government caused the
significant delays in program implementation.20 USAID officials told us that, in their opinion, the delays caused
by the lack of an agreement with the Afghan government were excusable. However, the overall delay in
awarding grants appears to have created participant dissatisfaction with the programs. For example, AECOM
reported that the delay in awarding grants and implementing projects in SIKA East “has caused some district
stakeholders to begin losing patience with the program.” Further, AECOM reported that some district
stakeholders have accused SIKA East staff members of “incompetence or even deception.” Similarly, AECOM
reported that participants in two districts in SIKA South are experiencing “fatigue” with the many planning
workshops they have attended. AECOM also reported that its facilitators and district staff in SIKA South are
worried that the lengthy processes of project development and approval could expose them to physical risk
from angry local representatives or constituents. According to a USAID third party monitor reviewing the SIKA
programs, expectation management is a significant issue, particularly in instances where the process could




20 According to USAID officials, the USAID Regional Legal Office recommended that the agreement with the Afghan
government be through an implementation letter rather than a memorandum of understanding due to the complexity of the
partnership with the Afghan government. USAID officials further stated that the Afghan government indicated comfort with
either a memorandum of understanding or implementation letter outlining the roles and responsibilities regarding the SIKA
programs and were not concerned with the format of the agreement.

SIGAR Audit 13-16/Stability in Key Areas                                                                          Page 8
raise expectations and disappoint the community if projects are continuously delayed or not executed.21 Such
disappointment may actually result in further destabilization and disaffection toward the Afghan government.


Lack of Clarity and Understanding of Key Program Concepts Undercut Program
Objectives
In addition to delays caused by the absence of an agreement with key Afghan government partners, a lack of
clarity in USAID’s presentation of the Kandahar Model in the SIKA contracts and inconsistencies in AECOM and
DAI’s application of it has undercut SIKA’s strategic and program objectives and further delayed grant-funded
project implementation. The SIKA contracts require AECOM and DAI to use the Kandahar Model community
contracting methodology to implement grant-funded community projects.22 Community contracting ensures
that CDCs and DDAs gain hands-on experience in project planning, execution, and management of finances.
According to NABDP, there are three types of projects characterized by their level of technical complexity (see
figure 3). Of these, two types of projects—semi-complicated and simple—are managed by CDCs or DDAs. Figure
3 shows the key features of the Kandahar Model, including the community contracting methodology.


Figure 3 - Kandahar Model of Community Contracting




Source: SIGAR analysis of MRRD, United Nations Development Programme, and USAID data.


While USAID required AECOM and DAI to use the Kandahar Model for SIKA implementation, the agency did not
provide the contractors with details of what the framework entailed or ensure consistent application of that
framework across the four SIKA programs. For example, during the request for proposal process, a potential
offeror asked USAID to provide additional detail on the Kandahar Model of community contracting, but USAID




21 Caerus Associates, LLC. Community Outreach and Engagement for Stabilization Activity Planning and Implementation:

An Evaluation of Best Practices. Washington, DC, March 16, 2013.
22   The four contracts use the term “community contracting” interchangeably with SIKA grants under contract.

SIGAR Audit 13-16/Stability in Key Areas                                                                        Page 9
declined to provide additional details to all potential offerors.23 Similarly, when we initially requested
clarification on the Kandahar Model in March 2013, the documentation USAID provided did not clearly
demonstrate how the SIKA contractors were to implement the model. For example, USAID provided a four-page
brochure from the MRRD that touted the benefits of the Kandahar Model, but did not explain how the SIKA
programs were to implement the model.
At the end of June 2013, USAID provided us a two-page document on the Kandahar Model, which included a
comparison of USAID’s understanding of the NABDP version of the Kandahar Model with the SIKA variation of
the model. However, the USAID document did not contain citations to indicate how it identified the key steps in
its interpretation of NABDP’s Kandahar Model, and these steps did not align with the process we identified
through our own analysis of primary documentation from MRRD and NABDP. Additionally, the document was
not dated and USAID provided no evidence that it had provided the document to either AECOM or DAI.
We found that, in the absence of guidance from USAID, each of the four SIKA programs differs in its application
of the Kandahar Model and approach to conceptualizing projects and awarding grants. This contradicts
USAID’s SIKA variation of the Kandahar Model, which presents the model as a single, clearly delineated
process. Figure 4 shows that each of the four SIKA programs established a different approach for project
development, approval, and award, despite the contractual requirement that they follow the Kandahar Model
and community contracting method.


Figure 4 - Process Comparison of Kandahar Model Community Contracting and SIKA Non-Competitive
Grants to District Entities




Source: SIGAR analysis of MRRD, USAID, DAI and AECOM data.


Several senior USAID and contractor staff stated that the SIKA implementation process is as important—if not
more important—than the final service delivery in achieving the program and strategic objectives. However, we
found several instances where the process developed in each SIKA region deviated from the contractually
required Kandahar Model of community contracting. Below are examples of how the different SIKA programs
adopted varying approaches and the effects of the changes thus far.


23 During the request for proposal process, USAID allowed potential SIKA offerors the opportunity to ask questions and gain

clarification. Any information USAID provided in response to one offeror is then made available to all offerors as an
amendment to the solicitation.

SIGAR Audit 13-16/Stability in Key Areas                                                                          Page 10
Additional Entities in Grant Process
As shown in figure 4, the Kandahar Model requires participation from only three entities—the DDA, MRRD, and
the Ministry of Finance—in the entire process. However, figure 4 also shows that each of the SIKA programs
inserted additional entities throughout the grant process. For example, SIKA South introduced additional
entities for grant concept review at the provincial level, which resulted in more delays beyond those caused by
the lack of the implementation letter. The SIKA South contracting officer’s representative stated that review of
project ideas at the provincial level by the inter-ministerial Sector Working Group and Provincial Development
Committee (which is chaired by the provincial governor) is “how things are supposed to work,” but admitted
that it is not clear if these steps are a requirement of the Kandahar Model.24 The lack of clear guidance and
understanding of how the model has worked in Kandahar allowed the provincial governor to delay SIKA South
operations by directing district government officials not to attend SIKA workshops and by personally reviewing
each grant project. SIKA South reports that the uncertain schedule of Kandahar provincial Sector Working
Groups and the intervention of the provincial governor delayed project approval.

Definition, Structure, and Composition of District Entities
SIKA East, SIKA West, and SIKA South modified the district entities with which they were required to work. As
shown in figure 4, the Kandahar Model places responsibility for project concept and contract development on
DDAs. According to NABDP documents, to keep the size of the DDA manageable, the membership of a DDA
should not exceed 30 individuals. SIKA East, however, uses the DDA Plus, which includes DDAs, District
Community Councils, and others. According to SIKA East program documentation, the DDA Plus has a
maximum size of 62 members, but in one case, the DDA Plus grew to 103 members. In SIKA West, AECOM is
using what it calls a “District Stabilization Committee,” though the term is not defined in the work plan and
does not exist in the contract as an entity eligible to receive community grants. In the case of SIKA South, the
contracting officer’s representative stated that the existing DDA in the pilot district was not elected and were
“not the right guys.” The contracting officer’s representative further stated that, as a result, SIKA South and the
contracting officer’s representative had to force the MRRD provincial representative to hold new DDA elections
in the pilot district, which caused further delays.25

Grants for Communities
According to the SIKA contracts, a benefit of the Kandahar Model is that it does not generally involve external
commercial companies or nongovernmental organizations. Instead, the Kandahar Model of community
contracting places responsibility on the community itself for project conception, implementation, and financial
management. However, the SIKA North chief of party and the USAID contracting officer’s representative both
stated that they prefer having services provided to communities rather than by the communities. The SIKA
North contracting officer’s representative further stated he did not see a problem with having contractors act
as intermediaries between the Afghan government and the district entity. These officials stated that SIKA North
intends to provide in-kind grants through nongovernmental organizations and commercial companies to
implement projects for the community.26 This use of in-kind grants does not meet a key requirement of the
SIKA programs of having Afghan district entities directly responsible for project implementation. According to

24 Provincial Development Committees were established to coordinate the activities of the Afghan government line
ministries, prepare Provincial Development Plans, improve donor coordination, monitor the implementation of development
projects, and enhance the capacity of the provincial administration for public administration and public service delivery.
Committee roles, functions, and membership vary by province. Sector Working Groups serve as functional subcommittees
for the Provincial Development Committee.
25 In its comments on a draft of this report, USAID stated that it was MRRD that required the NABDP to conduct new

elections to assure the legitimacy of DDAs as there had not been elections in over 3 years.
26 The SIKA grants manuals define in-kind grants as when the SIKA contractor procures supplies or services on behalf of

the grantee (district entity). With an in-kind grant, the district entity does not receive or manage grant funds. USAID does
not define in-kind grants in ADS 303 Grants and Cooperative Agreements to Nongovernmental Organizations but does
include language regarding in-kind grants in ADS Chapter 308 Awards to Public International Organizations.

SIGAR Audit 13-16/Stability in Key Areas                                                                              Page 11
the USAID’s National Coordinator for the SIKA programs, the MRRD considers the use of in-kind grants a part
of community contracting within the Kandahar Model because the community generates project ideas. In its
June 2013 Kandahar Model document, USAID stated that “[p]rojects proposed should also be done directly, by
the people of the CDCs and DDAs without external subcontractors [as this] builds confidence among the local
population and a sense of responsibility among local community members.” The use of in-kind grants does not
meet a key requirement of the SIKA programs, namely, that Afghan district entities are directly responsible for
project implementation. This approach shows different interpretations that do not fit community contracting
through the Kandahar Model.


CONCLUSION

In November 2010, USAID issued requests for proposals for SIKA programs in four regions of Afghanistan with
the intent of supporting and strengthening the Afghan government at the district and provincial level to
implement community-led development and governance initiatives, which would build confidence in the Afghan
government and therefore increase stability. As of March 31, 2013—16 months after USAID signed the first
contract—the four SIKA programs had disbursed almost $47 million of the $203 million in total contract value,
largely for community workshops and training sessions. Yet none of the four programs had awarded grants to
communities to address sources of instability. USAID officials cited the delay in finalizing the implementation
letter with key Afghan government partners as the main cause for the lack of progress in providing grants to
communities. However, given that the SIKA programs were intended to be seen as an extension of the Afghan
government and work within Afghan structures, it is disconcerting that USAID did not secure the agreement of
key government partners prior to issuing the requests for proposal or, at the very least, before awarding
contracts. Additionally, the variation in the approaches of the regional SIKA programs demonstrates that USAID
did not provide contractors with a clear understanding or application of the model or enforce contractual
requirements to use the Kandahar Model. USAID has offered little assurance that key USAID and contractor
staff have a shared vision of the Kandahar Model or community contracting. This, along with delays in
implementation, has resulted in community dissatisfaction with the lack of progress in implementing
community grants and potentially jeopardized the achievement of strategic and program objectives. To date,
while the four programs conducted several meetings and training sessions, the value of these events—and
ultimately the overall effectiveness of SIKA itself—cannot be established without grants execution, which USAID
identified as essential in achieving the overall strategy and expected results of the contracts.


RECOMMENDATIONS

To help ensure that future USAID programs do not face unnecessary delays in implementation, SIGAR
recommends that the USAID Mission Director for Afghanistan:
    1. Issue guidance requiring documentation of Afghan government agreement for future USAID programs
       that align with Afghan government initiatives. This agreement should be structured in a manner similar
       to the SIKA agreement that outlines the roles and responsibilities of each signatory in relation to the
       particular USAID program. Further, USAID should finalize such agreements prior to the start of the
       USAID program.
To help ensure that SIKA programs achieve identified strategic and program objectives (increased confidence
in district government, leading to the expansion of Afghan provincial government authority and legitimacy
through government officials responding to the local population’s development and governance concerns), we
recommend that the USAID Mission Director for Afghanistan instruct the USAID Mission Afghanistan’s Office of
Acquisition and Assistance and Stabilization Unit to:
    2. Modify each of the SIKA contracts to clearly articulate a consistent plan for community contracting and
       implementing the Kandahar Model under the NABDP, including the roles of specific government

SIGAR Audit 13-16/Stability in Key Areas                                                               Page 12
         and/or community entities and the processes to be followed in developing, approving, implementing,
         and monitoring community projects in support of SIKA program goals.
    3. Instruct the contracting officer’s representatives for each of the contracts to ensure that this plan for
       community contracting and implementing the Kandahar Model under the NABDP is applied in the
       regional SIKA programs.


AGENCY COMMENTS
We received written comments on a draft of this report from the Acting USAID Mission Director for Afghanistan.
USAID disagreed with several of our findings, but did not offer sound, fact-based reasoning for its concerns. For
example, USAID stated that our report illustrates a “fundamental misunderstanding of SlKA’s purpose in that
the implementation of grants is portrayed as the most important element of the program.” However, we
emphasized the importance of grants in the report only because USAID explicitly stated (in all four of its SIKA
contracts) that “the grants program is considered essential to the activities of the Contractor in achieving the
overall strategy and expected results of the program.” Our analysis of the contracts showed that grants are the
only program component identified as “essential.” USAID’s comment regarding our lack of understanding of
SIKA’s purpose misrepresents the critical importance of grant execution in achieving the intended outcomes of
the SIKA programs. The objective of the SIKA programs is “to promote stabilization in key areas by supporting
the [Afghan government…] to implement community led development and governance initiatives that respond
to the population’s needs and concerns in order to build confidence, stability, and increase the provision of
basic services,” and, according to the SIKA contracts, grants are vital tools in accomplishing this objective.

Additionally, throughout its comments, USAID stated that the variation in AECOM’s and DAI’s application of the
Kandahar Model across the four SIKA programs is acceptable and encouraged. However, by allowing such
varying approaches, USAID is ignoring identical contractual requirements that the Kandahar Model be used.
Moreover, in June 2013, when USAID provided us with its understanding of the Kandahar Model, USAID
presented a single SIKA variant of the model, which made no mention of flexibility across regional programs.
Nevertheless, USAID continued to cite the programs’ “flexibility” to adapt the Kandahar Model in ways suitable
to local conditions as a key reason for developing four regional programs instead of a single, nationwide
program. Further, when AECOM and DAI took different approaches to implement SIKA, USAID failed to provide
documentation explaining the reasons for the differing approaches.

USAID requested that our first recommendation be removed because, in USAID’s opinion, it already has
sufficient guidance. However, after reviewing the guidance cited by USAID in its comments—Mission Order
Number 201.03, Project Design and Approval Process─we determined that it does not meet the intent of our
recommendation because it does not call for written documentation of agreement by essential Afghan
government partners prior to the start of a USAID program. Requiring the formal documentation of agreement
is particularly critical for USAID programs, like SIKA, to ensure that they align with Afghan government
initiatives and work within Afghan structures.

USAID partially concurred with our second recommendation. USAID committed to modifying the SIKA West
contract to add language on NABDP and the Kandahar Model consistent with the language used in the other
SIKA contracts, and it set a target date of September 2013 to do so. We appreciate USAID’s intent in changing
the language of the SIKA West contract to match the other three SIKA contracts. However, USAID already made
this change through a modification to the SIKA West contract in September 2012. Furthermore, the point of
our recommendation was that the current references to the Kandahar Model in the SIKA contracts do not
ensure the consistent implementation of community contracting and the Kandahar Model across the SIKA
programs because it does not specifically identify key steps that should be integrated into the identification of
projects and the execution and management of grants.



SIGAR Audit 13-16/Stability in Key Areas                                                                  Page 13
USAID did not concur with our third recommendation because it believes that providing instructions to
contracting officer’s representatives on consistent application of community contracting and the Kandahar
Model under NABDP would be redundant to processes already in place. We disagree and maintain that the
variation in the approaches of the regional SIKA programs outlined in the report demonstrate that the
contracting officer’s representatives are not ensuring that AECOM and DAI apply community contracting and
the Kandahar Model in the four regional SIKA programs.

USAID also provided technical comments, which we incorporated into our report, as appropriate. USAID’s
comments and our responses to them are presented in appendix II.




SIGAR Audit 13-16/Stability in Key Areas                                                            Page 14
APPENDIX I - SCOPE AND METHODOLOGY

In February 2013, the Special Inspector General for Afghanistan Reconstruction (SIGAR) initiated an audit of
the U.S. Agency for International Development’s (USAID) Stability in Key Areas (SIKA) Programs—SIKA East,
SIKA West, SIKA South, and SIKA North. We initially planned to assess USAID’s implementation, management,
and oversight of SIKA grants under contract. However, it was not possible to conduct our original audit as
planned because none of the SIKA programs had implemented grants under contract. This report (1) describes
USAID’s progress in expending funds under the four SIKA programs, and (2) examines the challenges USAID
experienced in expending funds and implementing the SIKA programs.
To describe USAID’s progress in expending funds under the four SIKA programs, we reviewed contract
documentation and SIKA funding data from USAID, Quarterly Reports, and Quarterly Financials and Workdays
Reports from the contractors covering the period between December 2011 and March 2013. We performed
data reliability tests to determine the accuracy and completeness of the computer-processed data in the report
by comparing SIKA funding data provided by USAID to contractor-reported data in the Quarterly Financials. We
also compared USAID and contractor disbursement and obligation data with SIKA contract and modification
documentation. We determined that the data were sufficiently reliable for the purposes of the audit objectives.
To examine the challenges USAID experienced in expending funds and implementing the SIKA programs, we
reviewed contract documentation, and deliverables such as Quarterly Reports, Monthly Reports, Grants
Manuals, Work Plans, and Performance Management Plans. Additionally, we reviewed the SIKA
Implementation Letter between the USAID Mission Director for Afghanistan, the Director General of the Afghan
Independent Directorate for Local Governance, and the Afghan Ministers of Finance and Rural Rehabilitation
and Development. Finally, because the process for the Kandahar Model for community contracting was not
clearly articulated in a single SIKA document, we analyzed documents from the United Nations Development
Programme, including a 2010 Independent Management Review of the NABDP, and 2009 and 2010 versions
of a brochure on the Kandahar Model from the Afghan Ministry of Rural Rehabilitation and Development to
determine both the theory and practice of NABDP. We then compared our understanding of the Kandahar
Model approach to the processes for grants under contract in the four SIKA programs.
For both objectives, we interviewed officials at the USAID Mission Afghanistan’s Stabilization Unit and Office of
Acquisition and Assistance, and the contracting officer’s representatives or alternate contracting officer’s
representatives for the four contracts. We also interviewed the chiefs of party or deputy chiefs of party for the
four contracts.
We considered the impact of compliance with laws and fraud risk. With respect to assessing internal controls,
we reviewed compliance with requirements of the SIKA contracts. The results of our assessment are included
in the body of this report.
We conducted work in Washington, DC from February 2013 through July 2013, in accordance with generally
accepted government auditing standards. These standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. SIGAR conducted this audit under the authority of Pub. L. No. 110-
181, as amended, and the Inspector General Act of 1978, as amended.




SIGAR Audit 13-16/Stability in Key Areas                                                                  Page 15
APPENDIX II - COMMENTS FROM THE U.S. AGENCY FOR INTERNATIONAL
DEVELOPMENT



                         us
                         FROM THE AMERICAN PEOPLE


                  MEMORANDUM                                                                         Ju ly HI. 20 13

                  TO:                Joh n F. Sopko
                                     Special lnsr cctor Genera l lor Alg hnnistan Reconstruction
                                     (S IGA R)
                                               s a..o...<Jt ~;11.0 >
                  FROM:              Sarah Wines. Acting Mission Director

                  SUBJECT: Drali SIGA R Report. ··Stability in Key Areas (S IKA)
                           Programs: 16 Months alil:r USA ID A\\"ardecl thc First
                           Contract. Its Contractors I lave Not Executed Any
                           Community- lmrlcmcnted Gran t Projects··
                           (S IGA R Auditl 3-16)

                  REF:               SIGAR Transmittal email dated 06/29/20 13

                  Thank you lo r providing USA ID with the opportunity to review the
                  subject clran aud it report. Discussed below arc our comments.

                  GENERA L COMMENTS

                  The title o i" SIGAR"s report. ··siOhilizr in Key Areas (S/K, I) Programs:
                  16 Months after USAID A 11·rmled the Firs/ Con/rae/. lis Conlmc/Ors
                  /lave No! Executed Any Conull/lllity-lnlplementerl Gran/ Pr(y·ects ··.
                  suggests a l"undnmenta lmisundcrstanding oi"S II0\"s purpose in that the
                  implementation nl" grants is portrayed as the most important element or
                  the program. SIG/\ R makes only a hricl"rncntion of the other three
                  components o r the project on pag~.:s 6 and 9 and litils to ackno\\"lcdge
                  their imrortancc or that they arc intended to take place bcl(>re grants arc
                  implemented. Addi tionally. as or .lui) I. 201 3. s ignilicant progress has
                  been made in cx~.:cuting comm unity- implemented grant projects. Overal l.
                  the pnce or impkmcnwtion has been accdcrating with major progress in
                  the lirst three components or the program. We bel ieve this necessitates
                  sIGA R rc-examin ing the approp riat cn~.:ss or the I itle or the audit report.
                   It is mis leading to usc the phrase ··t(J 111onths r!fter USA /I) Oll'orrlerlthe
                  .first COllimel·· both in the title and throughout the report. While Sl KA-                          SIGAR
                  East was a\\·artlcd in l)eccmher 20 I I. Sl KA -Snuth ''as not awarded unt iI                        Comment 2
                  li ve months later. in April ~ 01 ~ . While SICi AR notes this on page 6. this

                                                              lt•l ~0? 210 li?8111 (170(1 1()8 001
                  US Agency for ln1crnat10md Dt\vclop1nent   lm.111 ~nhtllus,l1rtllllnrmi•hon@t•sru<1.nov
                  Great Massoud Road                         ht1pii.1Ultlllnt!\l~lfl \JS.tiii.Jlnv
                  Kabul Afghanistan




SIGAR Audit 13-16/Stability in Key Areas                                                                                      Page 16
                                                       2



                  is not made consistently clear in the report. Each SIKA contract has its
                  own timeline for implementation, and to suggest otherwise is misleading
                  to the reader.

                   COMMENTS ON SIGAR's FINDINGS

                   A. Community Grants (Pages 7 -10)

                  SIGAR states on page 7, paragraph I that "the four SIKA contracts
                  identify grants execution as essential to achieving the overall strategy
                  and expected results ofSfKA ".

                   USAID Response: As earlier noted, the title misconstrues the objectives
                   and approach of the four SIKA contracts. The work accomplished under
                   three of the four project components and the quality of the engagements
                   with communities and district entities are lar more important than the
                   total number of grants awarded.
                                                                                               SIGAR
                  Indeed, a major challenge for SIKA has been to make clear that this is not   Comment 3
                  a grants program where USAID provides discretionary funds for
                  communities to simply fund locally-identified projects. This is why the
                  contract contains four project components, only one of which is for
                  grants. In some cases, as a result of the work accomplished in the other
                  three components of the prqject, SIKA identifies a more appropriate
                  funding solution from an alternate source to address the identified source
                  of instability, as opposed to SIKA simply carrying out the project.

                   As of July I, 2013, significant progress has been made in awarding grants
                   which we request is renected in the report :
                                                                                               SIGAIR
                         SIKA-East: 54 grants approved lor $2, 164,458 and a pipeline of       Comment 4
                         157 grants for approval for $4,942,76H. 4 I grants arc currently
                         underway and $164.868 has been dishurscd.

                         Sl KA-North: 82 grants approved IC.>r $1 .745,187 and a pipeline of
                         live grants lor approval for $112.941. 49 grants arc currently
                         underway and $1 0.3 99 has been d isburscd.

                         SIKA-Wcst: 48 grants approved f(x $953,924 and a pipeline of 195
                         grants for approval lor $3.798.285. 29 grants arc currently
                         undenvay and $109.927 has been dishursed.

                         SIKA-South: Pipeline of40 grants l(>r approval f(>r $1.558,443.




SIGAR Audit 13-16/Stability in Key Areas                                                                Page 17
                   B. Lack of an Agreement with the Afghan Government and USAID's
                      Failure to Communicate Key Program Concepts Contributed to
                      Delayed Grants Execution (pages 9- II)
                   On pages 9 - I 0 of the report, SIGAR states that "USA/D did not secure a
                  formal agreement with key Afghan government partners until 9 months
                  after awarding the first SIKA contract to AECOM and almost 22 months
                  after issuing the first requests for proposal. The delay in signing the
                  agreement meant that USAID could not be assured of Afghan government
                  participation in SIKA implementation."

                  USAID RESPONSE: While we agree that the lack of an agreement with
                  the AJghan Government contributed to delays, th is is an
                  oversimplification. The Ministry of Rural R,ehabi litation and                S liGAR
                  Development (MRRD), our primary partner on SIKA was involved in               Comment 5
                  every stage of the design and award ofthc program. Unfortunately, a
                  change in leadership at MRRD around the time of the SIKA awards
                  necessitated a further rev iew of the program to ensure it aligned with the
                  new leadership team's vision for the Ministry. This is standard practice
                  in USAID's work worldwide which emphasizes host-country ownership
                  over speed.

                  Furthermore, SIGAR states on page I0 that "the overall delay in
                  awarding grants appears to have created participant dissatisfaction with
                  the programs. " We believe that is a broad generalization not supported
                  by lacts in the report. It is not substantiated beyond one vague example.
                  There is no evidence presented in the report or d iscussed in the
                  methodology to indicate that any sort of participant survey was
                                                                                                 SIGAR
                  conducted.                                                                     Comment 6

                  Additionally, the report states on page ll that ..such disappointment may
                  actual(v result in further destabilization and disqffection towards the
                  Afghan government. " This claim is not supported by evidence and fails
                  to look at SIKA ·s work beyond grants execution. There is insufficient
                  acknowledgement of the significant efforts made in the first three
                  intermediate results, many of which have been very successful and valued
                  by the participants.

                  C. Lack of Clarity and Understanding of Key Program Concepts
                     Undercut Program Objectives (pages II -14)




SIGAR Audit 13-16/Stability in Key Areas                                                                  Page 18
                                                        4



                  SIGAR states on page II, paragraph 1 that "In addition to delays caused
                  by the absence of an agreement with key Afghan government partners, a
                  lack of clarity in USAID 's presentation ofthe Kandahar Model in the
                  SIKA contracts and inconsistencies in AECOM and DA/'s application of
                  it has undercut SIKA 's strategic and program objectives and further
                  delayed grant-funded project implementation. "

                  USAID RESPONSE: W,e believe there is suHicient clarity in both
                  USAID's and our implementing partners' understanding of the Kandahar
                  Model. The Kandahar Model is a wel l-known component of the National
                  Area-Based Development Program (NABDP), and a public document on
                  the model drafted in 2009 is posted on MRRD's website. Additionally,            SIGAR
                  the application of the Kandahar Model is detailed extensively in the            Comment 7
                  grants manuals for each of the regional SI KA programs. For example,
                  the Kandahar Model is specifically referenced at least nine times in the
                  SIKA-West grants manual, including a fu ll three pages (pages 63-65). It
                  is also discussed frequently with implementing partners and MRRD at
                  both the national and regional levels and has been documented in minutes
                  of meetings between USAlD, MRRD, and SIKA implementing partners.

                  It is appropriate that regional S IKA programs have the nexibHity to adapt
                  the Kandahar Model in ways suitable to local conditions; in fact this was       SIGAR
                  a key reason in deve loping four regional programs instead of a single          Comment 8
                  nationwide program. In addition, the SIKA Unit based at MRRD
                  headquarters provides guidance and oversight from the national level.
                  The model ultimately promotes flexibility, which supports the inclusion
                  of provincial entities in the process - reflecting how sub-national
                  government policy is supposed to work. lfSIKA implemented the
                  Kandahar Model without regard to provincial considerations, it would be
                  circumventing established systems and cause confusion. For example,
                  page 15 ofthe SIKA-South contract states that "The focus ofSIKA-South
                  is therefore to assist district level government (through coordination at the
                  provincial level) in responding to the population's needs and concerns to
                  better instill confidence and build stability." The structures at the
                  provincial level provide a necessary linkage between the district and the
                  Afghan government line ministries.

                  We do not agree that SIKA ·s usc of the Kandahar Model delayed project SIGAR
                  implementation. The dc.lays in pn~j1 cct implementation were primarily   Comment 9
                  caused by the lack of an implementation letter with the Afghan
                  government due to a change in MRRD's leadership. 'l11c Minister of
                  MRRD was replaced in March. 20 12 and the new Minister and Deputy
                  Minister put the implementation ofS IKA on hold whi le they re-evaluated




SIGAR Audit 13-16/Stability in Key Areas                                                                 Page 19
                                                       5


                   SIKA in terms of different MRRD priorities. The resulting changes were
                   incorporated in the implementation letter signed on September 3, 2003.

                   There are other factors that also slowed implementation. In some cases,
                   weak community and government structures necessitated a lengthier
                   engagement process. These structures need to function effectively for
                   SIKA to deconflict projects with other programs and to reinforce existing
                   systems. A key premise ofSIKA is to take the extra time when needed          SIGAR
                   and increase local capacity, a process that can increase the time needed     Comment 10
                   for project implementation. As community and government capacity
                   increases, we expect the implementation of grants to accelerate.

                    Furthennoie, on page 13, SlGAR states that "the use of in-kind grants
                   does no/meet a key requirement ofthe SIKA programs, namely, that
                   Afghan district entities are directly responsible for project
                    implementation. This approach shows different interpretations that do not
                   fit community contracting through the Kandahar Model. "

                   USAID Response: SIGAR is incorrect that the use of in-kind grants by
                   SIKA-North do not meet a key requirement ofSIKA or that in-kind              SIGAR
                   grants are inconsistent with the Kandahar Model. In-kind grants are          Comment 11
                   allowed under the SIKA contracts and SIGAR's own depiction (Figure 3
                   on page 11) shows that complicated projects requiring a private
                   contractor are one type of activity under the Kandahar Model . In-kind
                   and fixed-obligation grants both require a bottom-up approach involving
                   communities, Community Development Councils (CDCs,) District
                   Development Assemblies (DDAs), and District Governors in identifying
                   sources of instability (SOls) and designing activities that mitigate the
                   SOl.

                   For a simple grant to a CDC or DDA, SIKA-North provides the grant
                   resources for the district entities to implement and monitor the project.
                   For an in-kind grant, SIKA-North negotiates with a supplier or service
                   provider for the inputs the community uses in their project. An example
                   would be for a road project that runs through multiple CDCs. In one
                   case, SIKA-North negotiated a 33% reduction in the price of gravel for a
                   cost savings that individual CDCs would have been unable to achieve.
                   The CDCs still work with the community to select workers tor the project
                   and monitor the implementation. This is clearly stated in SIKA-North's
                   grants manual.

                   COMMENTS ON SIGAR'S RECOMMENDATIONS




SIGAR Audit 13-16/Stability in Key Areas                                                                Page 20
                                                       6



                  To help ensure that future USAID programs do not face unnecessary
                  delays in implementation, SJGAR recommends that the USAID Mission
                  Director/or Afghanistan:

                  1. Issue guidance requiring documentation of Afghan government
                  agreement for future USAJD program(s) that align with Afghan
                  government initiatives. This agreement should be structured in a manner
                  similar to the SJKA agreement that outlines the roles and responsibilities
                  of each signaiOIJ' in relation to the particular USAID program. Further,
                  USAID should finalize such agreements prior to the start of the USA/D
                  program.

                  USAI D COMMENTS: USAID believes this recommendation has
                  already been met and should be deleted.

                  Subsequent to the creation of the SIKA programs, USAID/Afghanistan
                  Mission Order Number 201.03 (Attachment 1) was issued on July 15,
                                                                                           SIGAR
                  2012, to establish uniform procedures and requirements for the approval
                                                                                           Comment 12
                  of all Mission-f-unded activities, regardless of implementation approach
                  and/or mechanism. The Mission Order already calls for reaching
                  concurrence with the applicable ministry and the Minisll)' of Finance
                  during the design stage of the program. The Mission Order states on page
                  7 that ""all negotiations between the Mission and GIRoA, inclush,,e of
                  initial Conditions Precedent and Covenants, as well as other outstanding
                  issues are to be resolved during the design of the Project Appraisal
                  Document (PAD)."

                  As previously noted, a change in leadership at MRRD around the time of
                  the SIKA awards necessitated a further review ofthc program to ensure it
                  aligned with the new MRRD leadership team's vision for the Ministry.      SIGAR
                  Thus, even if an agreement had already been reached prior to award, it is Comment 5
                  likely program changes would have been necessary to align with the new
                  leadership·s vision and would have resulted in the same delays. This is
                  an inherent risk that any USAID program faces worldwide and can result
                  in delays to program implementation despite the best efforts ofUSAID
                  and the host country partner.

                  To help ensure that SIKA programs achieve identified strategic and
                  program objectives, we recommend that the USA/D Mission Directorfor
                  Afghanistan instruct USAID A1ission Afghanistan's Office of Acquisition
                  and Assistance and Stabili=alion Unit to:




SIGAR Audit 13-16/Stability in Key Areas                                                            Page 21
                  2. Modify each ofthe S/KA contracts to clearly articulate a consistent
                  plan for community contracting and implementing the Kandahar Model
                  under the NABDP, including the roles ofspecific government and/or
                  community entities and the processes to be followed in developing,
                  approving, implemenling, and monitoring community projects in support
                  ofSIKA program goals.

                   USAID COMMENTS: The Mission partially concurs with this
                   recommendation.

                  The SIKA-West contract does not explicitly require the use ofthe
                  Kandahar Model but the model was included in the Request for Proposal S IGAR
                  and is currently utilized, as SIGAR notes on page 12 Figure 4. We agree Comment 13
                  that the inadvertent omission referencing the Kandahar Model from the
                  contract should be rectified and included in the award via a modification.

                  Each of the SIKA programs uses the Kandahar Model in slightly different
                  ways. A bottom-up, community-based approach combined with                  ,...,S-IG..,....A-
                                                                                                            IR --....,
                  flexibility at the local level is the essence of the Kandahar Model and    ,Comment 14
                  mandating a strict adherence to any one particular approach would be
                  contradictol)' to the model and inhibit progress in developing grants. The
                  Kandahar Model does not preclude the inclusion of additional entities or
                  processes, and we believe the Kandahar Model has been appropriately
                  tailored to account for local conditions at the regional level. To require
                  uniformity in the implementation of the Kandahar Model beyond what is
                  already included in the awards would reduce its effectiveness by limiting
                  the flexibility it is based on.

                  Each regional SIKA program has a grants manual, all of which           =s-:-:IG~A:-::R::-----,
                  incorporate the Kandahar Model and discuss the roles of government and Comment 7
                  community entities and the processes for developing) approving,
                  implementing and monitoring community projects.

                  Finally, the Stabilization Unit's Monitoring and Evaluation program
                  (Measuring the Impact of StabiliL'.ation Initiatives- MISTI) is in the              SliGAR
                  process of developing best practices for a unifi,ed engagement model that           Comment 15
                  will include the Kandahar Model. This approach has the support of
                  MRRD and the Independent Directorate of Local Governance (IDLG)
                  and will lead to a more consistent usc of the model across the regional
                  SIKA programs. It is important to note, however, that the regional
                  programs must retain the flexibility to adapt the Kandahar Model to
                  ensure it is appropriate to local conditions.




SIGAR Audit 13-16/Stability in Key Areas                                                                         Page 22
SIGAR Audit 13-16/Stability in Key Areas   Page 23
                 SIGAR Response to U.S. Agency for International Development Comments
1. USAID’s comment that the provision of grants is only one of four components of the SIKA programs
   misrepresents the critical importance of grant execution in achieving the intended outcomes of the SIKA
   programs. As our draft report noted, the programs’ strategic objective is for Afghans to have increased
   confidence in their district government, with a secondary objective to assist district and provincial level
   Afghan government officials in responding to the local population’s development and governance
   concerns. To achieve these objectives, USAID identified four “components”—which our draft report and
   USAID’s contracts refer to as “intermediate results” that are required to achieve these objectives. These
   components are (1) provincial and district entities increasingly address sources of instability and take
   measures to respond to the population’s development and governance concerns; (2) provincial and district
   entities understand what organizations and provincial line departments work within their geographic areas,
   what kind of services they provide, and how the population can access those services; (3) provincial
   authorities improve their ability to communicate with district entities to help them better understand their
   population’s needs and prioritize basic service delivery interventions; and (4) provincial authorities are
   able to improve basic service delivery by using the Afghan government, Community Development Councils,
   District Development Assemblies, Afghanistan Social Outreach Program District Community Councils,
   which gain capacity to plan, design, implement and monitor projects, with a focus on labor-intensive
   projects or productive infrastructure.
    Component number four on improving basic service delivery is achieved through the provision of grants
    and is the only component referred to in all four SIKA contracts as “essential to the activities of the
    Contractor in achieving the overall strategy and expected results of the program.” Moreover, USAID
    modified three of the four contracts (for SIKA East, West, and North) to remove the requirement for the
    first three components to be completed prior to submission of the district project portfolios of grants
    applications for approval. As a result, we believe it is appropriate to refer to the grants component as the
    most important element of the program.
2. While we recognize that each of the SIKA programs has its own timeline for implementation (as
   demonstrated in figure 2 in the report), we determined it was appropriate to use 16 months as our
   benchmark because the first contract was awarded in December 2011. Further, even if we were to use the
   later date of April 2012, our concerns regarding the lack of progress in executing community grants and
   the lack of clarity in USAID’s requirement for community contracting using the Kandahar Model would still
   be valid.
3. See SIGAR Comment 1. Additionally, because the SIKA programs are “required to work within the existing
   framework and methodology of [the National Area Based Development Program (NABDP)] and the
   Kandahar Model,” the most appropriate funding solution from an alternate source would be the NABDP.
   However, USAID’s Ministry of Rural Rehabilitation and Development (MRRD) assessment from February
   2013 indicated that NABDP had been suspended from actual development work since at least April 2012
   due to a lack of funding. Further, even if alternate funding sources were available for some projects, all
   four contracts still require the use of grants and none of the three SIKA programs with first-year targets for
   completing an established number of grants activities (East, West, and South) reported any progress
   toward meetings these targets as of March 31, 2013.
4. We modified the report to include USAID’s data on its progress awarding grants. However, we note that the
   $285,194 in cumulative disbursements for grants represents only 0.6 percent of the $46.5 million
   designated for grants execution between the four contracts. Accordingly, we question whether this
   represents “significant progress” as USAID states in its comments.
5. In our view, USAID overstates the importance of the change in leadership at the MRRD. According to the
   SIKA program implementation letter, the formal agreement reached between USAID and key Afghan
   government partners, 9 months after awarding the first SIKA contract, documented the “understandings
   and agreement of the Government of the Islamic Republic of Afghanistan (the Government), as


SIGAR Audit 13-16/Stability in Key Areas                                                                  Page 24
    represented by the Ministry of Finance (MoF), the Ministry of Rural Rehabilitation and Development
    (MRRD) and the Independent Directorate of Local Governance (IDLG), and the United States Agency for
    International Development (USAID).” Because the agreement was between USAID, the ministries, and the
    IDLG, rather than between individual ministers or the IDLG’s director general, a change in leadership
    within any of the three Afghan government parties would not automatically invalidate the agreement. In
    our view, the effect of the change in leadership at MRRD was relatively minor as the new minister had
    previously served as the Deputy Minister of Programs at MRRD since 2008. In any case, even if the
    change in leadership at MRRD necessitated further review of the SIKA programs, we would have expected
    to see the award and implementation of community-led grants in the five pilot districts where USAID’s
    contractors were instructed to work while USAID and the Afghan government parties negotiated the
    agreement.
6. Our statement that the overall delay in awarding grants has created participant dissatisfaction with the
   programs was based directly on information reported in the SIKA East and SIKA South quarterly reports to
   USAID, which we cite in the report. In addition, April 2013 mission reports from the recently hired MRRD
   regional coordinator for SIKA East noted, that in Logar, Wardak, and Paktya provinces, community
   members expressed doubt and suspicion about SIKA because they have not seen any “tangible output” or
   “physical projects” from the program.
7. USAID’s comments indicate that it believes sufficient clarity and an adequate understanding of the
   Kandahar Model is based simply on the number of times the phrase is used in its grants manuals and in
   meetings between USAID, MRRD, and its contractors. We disagree. References to the Kandahar Model
   cited in USAID’s comments did not specifically identify how key steps in the model were integrated into the
   identification of projects and the execution and management of grants. Rather, the SIKA West grants
   manual merely copied language verbatim from a 2009 four-page Kandahar Model brochure produced by
   MRRD.
    In our view, a sufficient understanding of the appropriate application of the Kandahar Model requires an
    understanding beyond that provided by a four-page brochure. For example, we reviewed the following
    documents that could serve as additional resources for identifying key steps in the model, identifying
    projects, and guiding the awarding and execution of grants:
        Ministry of Rural Rehabilitation and Development of Afghanistan, National Area Based Development
         Program (NABDP) Model (Brief), Afghanistan, February 2013.
        Ministry of Rural Rehabilitation and Development of Afghanistan, National Area Based Development
         Program (NABDP) Operational Guidelines for Implementation of Community Projects, August 2011.
        United Nations Development Programme, Independent Management Review National Area Based
         Development Programme (NABDP) III Afghanistan, December 2010.
        Ministry of Rural Rehabilitation and Development of Afghanistan, Baseline Assessment of PRRD
         Capacity, Kandahar, October 2010.
        Ministry of Rural Rehabilitation and Development of Afghanistan, The Kandahar Model, 2010.
        Ministry of Rural Rehabilitation and Development of Afghanistan, National Area Based Development
         Program (NABDP) Operational Guidelines for Implementation of Community Projects, June 2008.
    These documents either discussed MRRD practices in Kandahar province specifically or how those
    practices applied to NABDP as a whole. We determined how each of the four regional programs planned to
    identify projects and execute and manage grants through detailed analysis of each program’s grants
    manual and work plan and through interviews with key USAID and contractor personnel. Although USAID
    stated that the Kandahar Model “is detailed extensively in the grants manuals for each of the regional
    SIKA programs,” our review of the four programs’ grants manuals found only references to the Kandahar
    Model rather than extensive detail on how the model functioned.




SIGAR Audit 13-16/Stability in Key Areas                                                               Page 25
8. While we agree that flexibility to account for local conditions across the four SIKA regions is important,
   USAID only provided us a single SIKA variant of the Kandahar Model in response to our requests for
   information and this variant made no mention of flexibility across regional programs. In addition, the
   reason for the different approaches taken by each of the SIKA programs was not explained in any of the
   documentation provided by USAID over the course of our audit. Furthermore, USAID’s statement that
   providing the SIKA programs flexibility to adapt the model in ways suitable to local conditions is
   contradicted by the fact that the language referencing the Kandahar Model in all four SIKA contracts is
   identical.
9. Contrary to USAID’s assertion, we do not believe that the use of the Kandahar Model itself delayed project
   implementation. Rather, it was the lack of clarity in USAID’s presentation of the model, and the resulting
   inconsistencies in its contractors’ application of the model, that contributed to delays. As we described in
   the draft report, a clear example of this inconsistency is in SIKA South with the integration of Sector
   Working Groups and the Provincial Development Committee in the process of grant review. In its April
   2013 quarterly report, USAID’s contractor AECOM reported that the uncertain schedule of Kandahar
   provincial Sector Working Groups and the intervention of the provincial governor delayed project approval.
   In addition, the SIKA South contracting officer’s representative told us that the main bottleneck in grant
   execution occurred at the provincial level, making specific reference to the Sector Working Groups. In our
   review of NABDP documentation and the grants manuals and work plans for the other three SIKA
   programs, we could not find references to required participation by either Sector Working Groups or the
   Provincial Development Committee in the grant process.
10. We recognize that extra time may be needed to ensure that program implementation is adequate and
    effective. Accordingly, it would have been appropriate for USAID, AECOM and DAI to treat operations in the
    pilot districts, where the contractors were instructed to work while USAID and the Afghan government
    parties negotiated the implementation letter, as true pilots to ensure the program worked properly by
    completing a full project cycle—from identifying sources of instability through implementing community
    grant projects—before expanding implementation to other districts. Further, according to USAID’s
    presentation of the Kandahar Model in the four SIKA contracts, the model has been successfully
    implemented by MRRD since 2007, meaning that structures, systems, and local capacity should have
    existed to enable project implementation following community contracting through the Kandahar Model.
11. USAID commented that in-kind grants are allowed under the SIKA contracts and consistent with the
    Kandahar Model. However, according to the four SIKA contracts, “SIKA will provide grants under contract
    (also known by MRRD as community contracting) for community projects that are not available through
    other funding mechanisms.” In the report, we point out that in-kind grants are grants of goods and services
    procured for the community by the SIKA contractors rather than by the community. Because in such a
    scenario, the community is not responsible for directly managing the funds itself, we do not agree that in-
    kind grants of goods and services for the community are the same as community contracting following the
    Kandahar Model. As we presented in figure 3, there are three types of projects contained within the
    Kandahar Model. However, only two of these project types (semi-complicated and simple) are contracted
    directly with and managed by Community Development Councils and District Development Assemblies.
    Community contracting under the Kandahar Model places responsibility on community leaders to directly
    manage grant finances and budgets, which is not the case with in-kind grants. In its June 2013 Kandahar
    Model document, USAID stated that “[p]rojects proposed should also be done directly, by the people of the
    [Community Development Councils] and [District Development Assemblies] without external
    subcontractors [as this] builds confidence among the local population and a sense of responsibility among
    local community members.” All these factors lead us to believe that community contracting only refers to
    those projects directly managed by the community, and that this is the broader intent of the grants under
    contract component of the four SIKA programs. Although figure 3 acknowledges that complicated projects
    exist within the Kandahar Model, they do not constitute community contracting.




SIGAR Audit 13-16/Stability in Key Areas                                                                Page 26
    While we applaud SIKA North’s interest in cost savings, bearing in mind that, as of March 31, 2013, it had
    not disbursed any of the $4.5 million set aside for grants under contract in its budget, a cost-savings on
    bulk gravel seems to be a misplaced concern given SIKA’s overall focus on community contracting.
    Additionally, road graveling projects are listed in NABDP documents as being semi-complicated and simple
    projects that are the very type of project that would be managed directly by the community. Further, there
    is a qualitative difference between grants implemented by the community and grants provided to the
    community, which, as we cited above, USAID acknowledged in its June 2013 Kandahar Model document.
    Further, while all four grants manuals refer to in-kind grants, the term is not included in USAID’s ADS
    Chapter 303, Grants and Cooperative Agreements to Nongovernmental Organizations, so it is not clear on
    what basis in-kind grants are justified in the grants manuals. In its section on in-kind grants, the SIKA
    North grants manual references ADS Chapter 308, Awards to Public International Organizations, as the
    basis for its justification of the use of in-kind grants. It not clear, however, how ADS Chapter 308 applies to
    grants to communities or how this meets the larger intent of community contracting in the SIKA contracts.
12. Although USAID provided Mission Order Number 201.03, Project Design and Approval Process as
    evidence that the agency had already taken actions to address our recommendation to obtain
    documentation of the Afghan government’s agreement on projects, after a review of the Order, we
    determined that it does not meet the intent of our recommendation. Specifically, the Mission Order does
    not call for written documentation of agreement by essential Afghan government partners prior to the start
    of the USAID program. The Mission Order explicitly references the role of Afghan government entities twice.
    First, when identifying the process for review of project concept papers, it states that the Project
    Development Officer will circulate project concept papers to interested donors, the Afghan Ministry of
    Finance, and any concerned line ministries, inviting these entities to identify issues for discussion. Second,
    when identifying the process for development and approval of the Project Appraisal Document, it states
    that all negotiations between the Mission and the Afghan government, as well as other outstanding issues
    are to be resolved during Project Appraisal Document design. Soliciting feedback from and conducting
    negotiations with the Afghan government is not the same as formally documenting the commitment of the
    Afghan government.
    Having a written agreement laying out the roles and responsibilities of each signatory is particularly
    important to document buy-in from critical Afghan partners for programs that are to be seen as an
    extension of the Afghan government and work within Afghan structures. Even if the head of the Afghan
    ministry that signed the agreement leaves prior to or during program implementation, such a formal,
    signed agreement would serve as precedent for the Ministry’s (not the individual Minister’s) support for the
    program, and could be used as justification by USAID to secure continued support from the new Afghan
    leadership.
13. We do not believe that USAID needs to modify the SIKA West contract in the manner described in its
    comments. Modification 2 of the SIKA West contract, signed September 5, 2012, replaced Section C of the
    contract with the same language on the Kandahar Model and the requirement to work within the existing
    framework and methodology of NABDP and the Kandahar Model that the other three SIKA contracts
    contain.
    Additionally, we disagree with USAID’s statement that figure 4 shows that SIKA West is currently using the
    Kandahar Model. The sentence introducing figure 4 states that “each of the four SIKA programs
    established a different approach for project development, approval, and award, despite the contractual
    requirement that they follow the Kandahar Model and community contracting method.” Additionally, in
    figure 4, the actual steps and participants in the SIKA West model do not match the steps and participants
    identified in the NABDP Kandahar Model. For example, figure 4 demonstrates that SIKA West is using a
    “District Stabilization Committee,” although the term is not defined in the work plan and does not exist in
    the contract as an entity eligible to receive community grants.
14. We agree that the “essence” of the Kandahar Model is bottom-up and community based. It is, though, still
    a model that contains defined actors and processes. Further, the language referencing the Kandahar

SIGAR Audit 13-16/Stability in Key Areas                                                                   Page 27
    Model in each of the contracts (and relevant subsequent modification) is identical. None of the
    documentation on the Kandahar Model provided by USAID states that the Kandahar Model is to be
    tailored by the SIKA contractors to local/regional conditions. Given that USAID’s June 2013 Kandahar
    Model document presents the MRRD/NABDP Kandahar Model and only one SIKA variant of the Kandahar
    Model, it is not clear where this flexibility exists in the Kandahar Model or in the SIKA contracts.
15. We welcome USAID’s report that the Measuring the Impact of Stabilization Initiatives program is in the
    process of developing best practices for a unified engagement model that will include the Kandahar
    Model, as this should help address the needs that we identified in our report. If the “Measuring the Impact
    of Stabilization Initiatives” program results in clearly identified key steps in the development, approval, and
    award of grants within the framework and methodologies of community contracting and the Kandahar
    Model, this should satisfy the intent of our recommendation.
16. USAID stated in its response that the contracting officer’s representatives’ responsibilities are "to monitor
    the contractor's performance and verify that it conforms to the technical requirements and quality
    standards agreed to in the terms and conditions of the contract." However, because USAID has not clearly
    articulated the specific entities and steps involved in developing, approving, implementing, and monitoring
    community grant projects using community contracting and the Kandahar Model, USAID’s contracting
    officer’s representatives have allowed AECOM and DAI to proceed with approaches that, as our analysis
    demonstrated, do not fit within the basic tenets of the model.
    We maintain that the recommendation remains valid and important, given USAID’s continued confusion
    regarding such critical terms as the “Kandahar Model” and “community contracting,” as reflected in
    USAID’s comments to our report. Throughout the audit process and, again, in its comments to our draft
    report, USAID has not provided a consistent, single variant of the model, has indicated that the model is
    simultaneously flexible and uniform, and has not presented assurances that deviations from the
    contractually mandated model are carefully weighed against the overarching objectives of the program.




SIGAR Audit 13-16/Stability in Key Areas                                                                   Page 28
APPENDIX III - ACKNOWLEDGMENTS

Matthew Dove, Senior Audit Manager
Julie E. Silvers, Senior Program Analyst
Daniel Weggeland, Senior Program Analyst




SIGAR Audit 13-16/Stability in Key Areas   Page 29
                                           This audit report was conducted
                                           under project code SIGAR-076A.




SIGAR Audit 13-16/Stability in Key Areas                                     Page 30
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs
                                           Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
